IN THE

Supreme Court of the United States
ERICH G. SORENSON,
Petitioner,

v.

COMMONWEALTH OF MASSACHUSETTS,
Respondent.
On Petition for a Writ of Certiorari to the
Massachusetts Appeals Court
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Gerard J. Cedrone, a member
of the Bar of this Court, certify this 11th day of June 2021 that the Petition for a
Writ of Certiorari contains 8,302 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

June 11, 2021

/s/ Gerard J. Cedrone
GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
gcedrone@goodwinlaw.com
(617) 570-1849
Counsel of Record for Petitioner

